HHS/OIG Audit:"Medicaid Payments For School-Based Health Services Worcester, Massachusetts _ July 1999 Through June 2000 -,"(A-01-01-00008)
Department
of Health and Human Services
"Medicaid Payments For School-Based Health Services Worcester, Massachusetts - July 1999 Through June 2000," (A-01-01-00008)
November 14, 2002
Complete
Text of Report is available in PDF format (1.38 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based health services by the Worcester Public
Schools through the Commonwealth of Massachusetts were reasonable, allowable and adequately supported in accordance with
the terms of the State Medicaid Plan and applicable federal regulations.  The audit period included Medicaid payments
made during the period July 1, 1999 through June 30, 2000.  We found that the Worcester Public Schools inappropriately
claimed the cost of school-based health services when documentation was inadequate, the student was absent, and/or the
wrong prototype was billed.  As a result, we estimate that the Worcester Public Schools were overpaid at least $67,777.  We
recommended a financial adjustment and that the Worcester Public Schools develop and/or improve several procedures to ensure
that the claim for federal reimbursement is based on an appropriate prototype related to documented services provided in
response to a valid Individualized Education Plan for days on which the student attended school.  Worcester Public
Schools officials generally agreed with our procedural recommendations, but did not express agreement or disagreement regarding
the refund of the $67,777.